No.

In the

Supreme Court of the United States

ROBERT LOUIS BRANDON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Fifth Circuit
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Now comes the Petitioner, Robert Louis Brandon, and pursuant to 18 U.S.C.
§ 3006A, and Rule 39.1 of this Court, respectfully requests leave to proceed in forma
pauperis before this Court, and to file the attached Petition for a Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit without prepayment of
filing fees and costs.
In support of this motion, Petitioner states that he is indigent and was
sentenced to a term of imprisonment in the United States Bureau of Prisons, and
was represented by counsel appointed under the Criminal Justice Act, 18 U.S.C. §

1

3006A(b) and (c), in the United States District Court for the Western District of
Texas and on appeal to the United States Court of Appeals for the Fifth Circuit.
WHEREFORE, Petitioner, Robert Louis Brandon, asks leave to proceed in
forma pauperis.
Dated: September 25, 2020
Respectfully submitted,

Nelson S. Ebaugh
State Bar No. 24007139
Nelson S. Ebaugh, P.C.
3730 Kirby Drive, Suite 1200
Houston, Texas 77098
Tel. (713) 752-0700
Fax (713) 739-0500
nebaugh@ebaughlaw.com
Attorney for Petitioner – CJA counsel,
appointed under 18 U.S.C. § 3006A

2

